U.S. Department of the Interior
Office of Inspector General




Management of
Federal Funds
Cheyenne and
Arapaho Tribes of
Oklahoma

Tribes and Bureau of
Indian Affairs
Working Together to
Improve Tribal Financial
and Program
Management Systems




                   Report No. 2002-I-0006
                            January 2002
                 United States Department of the Interior

                                  Office of Inspector General
                                       Western Region
                                            Federal Building
                                     2800 Cottage Way, Suite E-2712
                                       Sacramento, California 95825



                                                                         January 11, 2002
                                                                                     7430

Memorandum

To:       Assistant Secretary for Indian Affairs

From:     Michael P. Colombo
          Regional Audit Manager, Western Region

Subject: Final Audit Report, Management of Federal Funds by the Cheyenne and
         Arapaho Tribes of Oklahoma (Report No. 2002-I-0006)

   The attached report presents the results of our review of the effectiveness of the
Cheyenne and Arapaho Tribes of Oklahoma in managing federal funds. As requested by
your office and by Senators Don Nickles and James M. Inhofe and Representative
Frank D. Lucas, we reviewed the Tribes= management systems and internal controls to
determine whether they were sufficient to ensure that these funds were properly
managed, accounted for, and expended in accordance with federal laws and regulations
and the terms of the funding agreements. The Tribes have experienced difficulty in
complying with the terms of their funding agreements since at least 1992.

Results in Brief

   We are pleased to report that although much work remains to be done, the Tribes are
improving their management of federal programs. We believe that this improvement is
the direct result of the decisive actions taken by the Bureau of Indian Affairs (BIA) and
the U.S. Department of Health and Human Services (HHS). These agencies, which
collectively account for the majority of the Tribes= federal funding, continue to take the
steps necessary to address identified problems and ensure that federal funds are properly
managed and expended. In September 1996, BIA classified the Tribes as a Ahigh-risk@
contractor, placed the Tribes on a cost-reimbursable basis, and increased its monitoring of
Tribal contracts and grants with BIA. Similarly, in July 1999, HHS increased the
monitoring of its contracts and grants with the Tribes and in June 2000 placed the Tribes
on a cost-reimbursable basis. As a result, a majority of the Tribes= federal funding is now
provided on a cost-reimbursable basis.
   Our review confirmed BIA=s determination that while the Tribes have made progress in
improving their compliance with federal program requirements, they still needed to make
significant improvements in the management of their financial systems and Social Services
Program. The Tribes must now implement, and elected officials and Tribal management
personnel must consistently enforce, the recommendations made by their auditors and federal
funding agencies. If the Tribes do not take the necessary actions, BIA will be required to
continue to closely monitor BIA programs into the foreseeable future. We also found that from
1997 through 1999, the Tribes had inappropriately used about $614,000 of direct federal
program funds to pay the overhead, or indirect, costs of administering their federal programs.

   We recommended that you direct BIA to continue to work with Tribal officials to ensure that
the Tribes (1) comply with their Accounting and Finance Manual in accounting for and
administering federal funds, (2) properly determine and document in case files the eligibility and
need of participants in the Social Services Program, (3) determine the amount of direct program
funding used for indirect purposes applicable to each federal program, and (4) notify each federal
agency of the reimbursable amount identified. In our opinion, these recommendations will assist
BIA=s continuing effort to work with the Tribes in implementing an effective financial
management system and in further improving program management, specifically of the Social
Services Program. If the Tribes do not improve their management of federal programs, we
believe that BIA should consider installing a federal monitor or reassuming administration of the
programs.

    In your response to our draft report (Appendix 1), you concurred with Recommendations 1
and 2 and did not concur with Recommendations 3 and 4. We modified Recommendations 3 and
4 to address your concerns and believe that your proposed actions meet the general intent of the
recommendations. Accordingly, we consider Recommendations 2, 3, and 4 resolved and are
referring them to the Assistant Secretary for Policy, Management and Budget for tracking of
implementation. We modified Recommendations 1 and 2 to include a provision for establishing
a federal monitor. For Recommendation 1, we are requesting that BIA provide us with
additional information: namely, an estimated date for either (1) the Tribe=s compliance with the
Accounting and Finance Manual or (2) BIA=s installation of a federal monitor or reassumption of
program administration.

   In their response, the Tribes generally concurred with our findings and recommendations, but
expressed frustration at their Ahigh-risk@ classification and stated that more cooperation is needed
between the Tribes and BIA. We agree that corrective actions are best accomplished in an
atmosphere of cooperation and believe that the actions proposed in your response will assist the
Tribes in correcting their financial and program deficiencies.

   We commend the managers and staff of BIA=s Southern Plains Regional Office and Concho
Agency Office for their oversight of BIA programs. We also thank BIA and the Tribes for their
assistance and cooperation during our audit. We will report the results of our review to the three
Congressmen, as well as to the regional offices of the Inspectors General for the federal agencies
providing significant funding to the Tribes.
Action Required

   In accordance with the Departmental Manual (360 DM 5.3), we are requesting a written
response to this report by March 15, 2002. The response should provide the information
requested in Appendix 3.

   The legislation, as amended, creating the Office of Inspector General requires us to report
semiannually to Congress on all audit reports issued, actions taken to implement audit
recommendations, and each significant recommendation that has not been implemented.

Attachment

cc:   Mr. Jerry Fiely, Acting Director, Assistant Secretary for Indian Affairs, Office of Audit and
      Evaluation
      Mr. Dan Deerinwater, Regional Director, Southern Plains Regional Office, Bureau of
      Indian Affairs
      Ms. Galila Johnson, Superintendent, Concho Agency, Bureau of Indian Affairs
      Audit Liaison Officer, Bureau of Indian Affairs
Contents

                                                                                                   Page

           Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
                 Objective and Scope of Review . . . . . . . . . . . . . . . . . . . . . . 4
           Tribes Have Made Progress But Further Improvement
              Is Needed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
                 Enforce Existing Financial Management Controls . . . . . . . 5
                 Ensure Eligibility of Applicants for Social
                  Services Program Benefits . . . . . . . . . . . . . . . . . . . . . . . . 6
           Tribes Used Direct Program Funds for Indirect Costs . . . . . . . . . 7
           Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
           Agency and Tribal Response and OIG Reply . . . . . . . . . . . . . . . . 8

           Appendices
              1 Response from Bureau of Indian Affairs . . . . . . . . . . . . 10
              2 Response from Cheyenne and Arapaho Tribes . . . . . . . . 13
              3 Status of Recommendations . . . . . . . . . . . . . . . . . . . . . . . 15


                                             List of Figures
           Figure
            No.

                1         Location Map . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
                2         Chronology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2-3
                3         General Assistance Payments . . . . . . . . . . . . . . . . . . . 6




           Abbreviations

                BIA      . . . . . . . . . . . . . . . . . . . . . . . . . . Bureau of Indian Affairs
                CPA      . . . . . . . . . . . . . . . . . . . . . . . Certified Public Accountant
                HHS      . . . . . . . . . . . Department of Health and Human Services
                OIG      . . . . . . . . . . . . . . . . . . . . . . . Office of Inspector General
Background   The headquarters office of the Cheyenne and Arapaho Tribes of
             Oklahoma is located in Concho, Oklahoma. The Tribes have about
             11,500 enrolled members, of
             which about 5,000 live on or
             near the reservation. A business
             committee, composed of four
             representatives elected from the
             Cheyenne Tribe and four
             representatives from the
             Arapaho Tribe, administers the
             day-to-day operations of federal
             programs and Tribal enterprises,
             including a casino, bingo halls,                          Figure 1
             smoke shops, and a farm and ranch.                  Location Map

             The Tribes’ federal programs are funded through agreements
             executed with federal agencies, generally under the Indian Self-
             Determination and Education Assistance Act (Public Law 93-638 as
             amended). In fiscal year 1999,1 the Tribes received $7.3 million in
             federal funds, of which over 80 percent was received from BIA and
             HHS. To ensure that the funds are properly expended, federal
             agencies, in this case primarily BIA and HHS, periodically review
             Tribal financial and program management. The agencies also rely on
             annual audits of the Tribes’ financial management system conducted
             by certified public accountants (CPA) under the Single Audit Act
             (Public Law 98-502 as amended) and Office of Management and
             Budget Circular A-133, Audits of State, Local Governments, and Non-
             Profit Organizations.2

             Since at least 1992, the Tribes have had difficulty in complying with
             the terms and conditions of their federal contracts and grants and in
             maintaining the integrity of their financial and program management
             systems. As a result, by December 31, 1996, the Tribes had been
             advanced about $2.9 million in federal monies that had not been spent
             on approved program purposes and were not covered by available
             Tribal resources.3 Of this amount, $2.3 million was applicable to
             BIA. Figure 2 shows the recent history of deficiencies in the Tribes’
             financial and program management systems and the corrective actions
             taken by BIA and HHS.

             1
              The Tribes’ fiscal year is the calendar year.
             2
              Under the Circular, a single audit is an audit of an organization’s financial statements,
             applicable internal controls, and federal contracts or grants conducted by an independent
             audit organization, generally a CPA firm.
             3
              These advances, known as “deferred revenues,” are normally covered by cash in the bank or
             investments. If not, they become unaccounted for deferred revenue. As such, they are
             reported as a deficiency in financial statements and are subject to reimbursement.

                                                              1
‘   September 1996 - BIA Classifies Tribes As A “High-Risk”
    Contractor And Places Them On A Cost-Reimbursable Basis.
    Acting Area Director of BIA’s Anadarko Area Office (now known as the
    Southern Plains Regional Office) based the decision, in part, on the
    inability of the Tribes to provide financial statement audits (single audits)
    and program and financial reports within required time frames and their
    failure to comply with contract terms and to address about $2.3 million
    of deferred revenue applicable to BIA programs.

‘   1997 - BIA’s Concho Agency Conducts Expenditure Reviews.
    Agency staff performed expenditure reviews of the Tribes’ requests for
    reimbursements about once a month.

‘   1998 And 1999 - BIA Reviews Note Some Improvement Since
    1996, But Identify Continued Deficiencies.
       June 1998 Review Of Law Enforcement Program. This review
       reported a general failure to meet minimum Program requirements;
       specifically the review identified:
          S Missing law enforcement weapons.
          S Inadequate accountability for sensitive equipment.
          S Poor management practices in hiring, training, and directing
             employees and in conducting criminal investigations.
       October 1999 Followup Review Of Law Enforcement Program.
       This review reported that many issues identified in the 1998 review
       had been corrected but that some personnel-related issues remained.
       July 1998 Review Of Social Services Program. This review
       questioned the allowability of assistance payments and noted that very
       little effort was made toward moving clients toward long-term self-
       sufficiency. Specifically:
          S Application forms were incomplete.
          S Case files did not have sufficient documentation to establish
             eligibility, support need and payment amounts, or to indicate
             verification of income or other resources available to applicant.
       Expenditure Reviews. Five reviews, conducted to verify that
       expenditures were allowable and supportable, continued to identify
       deficiencies in payroll, travel, property management, and
       procurement.

‘   July 1998 - BIA’s Concho Agency Awarding Official Issues
    Decisions To Disallow $593,505. The $593,505 was funds advanced
    under completed federal contracts and grants with the Tribes. The
    Tribes had not provided documentation that these funds had been spent
    for approved purposes.




                                         2
‘   September And December 1998 - BIA Issues Bills For Collection
    For $593,505.

‘   October And December 1998 - Tribes Appeal BIA Bills For
    Collection To Interior Board Of Contract Appeals. (Awaiting
    Resolution)

‘   June 1999 - BIA’s Concho Agency Awarding Official Issues
    Decision To Disallow $2,277,748. The amount represents the
    cumulative total of unaccounted for deferred revenue for BIA contracts and
    grants, including the $593,505.

‘   July 1999 - Tribes Appeal June 1999 Agency Decision To
    Interior Board Of Contract Appeals. (Awaiting Resolution)

‘   July 1999 - HHS Office Of Audit Services Advises That The
    Tribes Should Be Put On “Departmental Alert List.” This action
    increased HHS monitoring of Tribal contracts and grants.

‘   February 2000 - BIA Receives The Tribes’ Single Audit Report
    For Calendar Year 1997 With Qualified Opinion. The CPA firm
    conducting the audit issued a qualified opinion because interfund transfers
    to and from funding sources did not reconcile and because there were nine
    significant internal control deficiencies involving the Tribes’ ability to
    administer federal funding in accordance with the terms of federal
    contracts and grants. In effect, the Tribes did not accurately record,
    process, document, and report financial and program information.
    (The1997 report was due February 1, 1999.)

‘   June 2000 - HHS/Indian Health Service Places Tribes On Cost-
    Reimbursable Basis. (Decision retroactive to March 1, 2000)

‘   March 2001 - BIA Receives Single Audit Report For Calendar
    Year 1998 With Qualified Opinion. The CPA firm reported
    18 significant internal control deficiencies affecting the Tribes’ ability to
    account for and report financial data in accordance with federal contracts
    and grants. Overall, the deficiencies reported were similar to those
    identified in the 1997 single audit report and in BIA expenditure and
    program reviews. (The 1998 report was due February 1, 2000.)



                                                                       Figure 2
                                                                     Chronology


                                                      3
Objective and     The Assistant Secretary for Indian Affairs and Senators Don Nickles
Scope of Review   and James M. Inhofe and Representative Frank D. Lucas requested
                  that we review the Tribes’ management systems and internal controls
                  to determine whether they were sufficient to ensure that federal funds
                  were properly managed, accounted for, and expended in accordance
                  with federal laws and regulations and the terms of the funding
                  agreements.

                  We conducted our review in accordance with the “Government
                  Auditing Standards,” issued by the Comptroller General of the United
                  States and included such tests of records and other auditing
                  procedures that were considered necessary to meet our objective. We
                  also reviewed the system of internal controls over the Tribes’
                  management of federal funds and administration of federal programs.
                  We identified and confirmed CPA-reported control weaknesses
                  related to the accurate and timely recording, processing, documenting,
                  and reporting of financial information and the management of the
                  Social Services Program. Our recommendations to correct the
                  identified weaknesses should improve internal controls in these areas.

                  We reviewed six programs (Community Health Representative, Child
                  Care and Development, Higher Education, Social Services, Law
                  Enforcement, and Housing Improvement) to determine the adequacy
                  of file documentation, verify applicant or recipient eligibility, and test
                  general compliance with contract provisions. We selected these
                  programs because they were considered major programs (programs
                  over $300,000) or because agency reviews or other audits had
                  identified material problems with the programs. These programs
                  received a total of $2.7 million, or 37 percent of the federal funds
                  received in 1999.

                  We also analyzed the financial status of the Tribes’ federal programs
                  by testing program revenues and expenditures and other financial and
                  planning data available for the Tribes’ fiscal year ending
                  December 31, 1999. We confirmed the validity of federal funds
                  reported and reviewed the propriety of payroll, procurement, travel,
                  and property management expenses, which accounted for about
                  64 percent of total expenditures. With the exception of our review of
                  the Tribes’ indirect cost charges, we did not test accounting periods
                  prior to January 1999 because the Tribes’ 1997 records had just been
                  audited and the Tribes’ CPA firm was auditing Tribal records for
                  calendar year 1998.




                                                      4
Tribes Have         Our review confirmed BIA’s determination that the Tribes had made
                    progress in developing management systems and internal controls to
Made Progress       administer their federal programs. We believe that the Tribes’
But Further         progress was primarily the result of BIA’s increased oversight. We
                    agree with BIA that further improvements are needed in
Improvement Is      implementing and enforcing these systems and controls. We believe
Needed              that enforcing compliance with the Tribes’ Accounting and Finance
                    Manual and ensuring the eligibility of individuals who apply for
                    benefits from the Social Services Program would significantly
                    improve Tribal compliance with the terms of federal funding
                    agreements and help ensure that federal funds are spent only for
                    approved purposes.

 Enforce Existing   The Tribes’ Accounting and Finance Manual provides for the
 Financial          systematic processing and reporting of financial transactions,
 Management         including procedures to review both active and inactive programs that
                    had not been officially closed out. Tribal officials, however, did not
 Controls           consistently enforce these policies and procedures, which
                    significantly contributed to accounting-related problems similar to
                    those identified by BIA during its 1997 and 1998 expenditure and
                    program reviews and by the Tribes’ CPA firm during its 1997 audit.
                    Specifically, the Tribes did not accurately and timely record, process,
                    document and report financial information, as shown in the following
                    examples.

                       ‘ Tribal officials did not require employees to produce monthly
                         or quarterly financial statements, close accounting records, or
                         make year-end adjusting and closing entries. Instead,
                         management allowed these functions to be performed during
                         the Tribes’ single audit process months or even years after the
                         end of the accounting period. In July 2000, for instance, we
                         found that staff were still making adjustments to 1998
                         financial data.

                       ‘ Tribal officials allowed nearly every finance department
                         employee to adjust financial data, resulting in some data being
                         adjusted more than once and without supervisory review or
                         approval.

                       ‘ Tribal officials did not always require employees to reconcile
                         differences between accounts, such as interfund transfers. In
                         addition, the Controller or other designated official did not
                         always analyze the reconciliations that were made to
                         determine the reasons for differences and to reduce or prevent
                         their reoccurrence.




                                                       5
                         ‘ Tribal officials did not require employees to close out federal
                           contract/program accounts in a timely manner. We found that
                           as of July 2000, accounts for 16 inactive contracts were still
                           open in the Tribes’ accounting records, thus allowing for
                           unapproved adjustments to accounts.

                         ‘ Tribal officials did not consistently require employees to use
                           the budgetary features of the accounting software, which is
                           designed to measure financial performance and thereby reduce
                           or prevent the over-expenditure of federal program funds.

Ensure Eligibility   Of the six programs reviewed, we found that, with the exception of
of Applicants for    the Social Services Program, the Tribes generally expended contract
                     funds for the purposes allowable under the contracts. In the Social
Social Services
                     Services Program,4 however, officials still were not adequately
Program Benefits     documenting applicant eligibility and allowed ineligible applicants to
                     receive assistance. Of the 470 participants receiving general
                     assistance payments totaling $212,607 in 1999, we randomly selected
                     and reviewed case files for 48 participants. Of these, we could verify
                     the eligibility of only two participants, based on file documentation.
                     See Figure 3.



                                                            Assistance
                                         Participants       Provided            Eligibility
                                               36             $18,460         Unverifiable
                                               10              $7,449          Not Eligible
                                                2                $586            Eligible

                                               48

                                                                        Figure 3
                                                    General Assistance Payments
                     We also reviewed 6 of 163 homeless assistance payments made in
                     1999 to ascertain the eligibility of program participants and found that
                     none were sufficiently documented to determine eligibility. We
                     limited our testing because a June 2000 BIA review had determined
                     that participants for 40 of the 49 cases reviewed were not eligible.
                     Our review confirmed BIA’s determination that the lack of adequate
                     documentation to establish participant eligibility was and continues to
                     be a significant problem for the Social Services Program.


                     4
                      We reviewed General Assistance and Homeless Assistance, the two largest segments of the
                     Social Services Program.

                                                                6
                 The Social Services Program Director stated that ineligible Tribal
                 members received assistance because of high staff turnover, heavy
                 workload, and lack of staff training. Notwithstanding these problems,
                 the Tribes’ Social Services Program contract, which incorporates
                 Part 20 of Title 25 of the Code of Federal Regulations, requires
                 limiting applicant eligibility to persons who are at least one-quarter
                 Indian; live in the area served by the Tribes; lack basic food, shelter,
                 or clothing; do not receive financial assistance from the Aid To
                 Families With Dependent Children or the Supplemental Security
                 Income Programs; and complete an application for local, state, and
                 federal assistance.

                 Accordingly, we believe that both BIA and the Tribes should continue
                 to monitor the Social Services Program carefully to ensure that case
                 files are properly documented and that only eligible applicants receive
                 assistance. If necessary, BIA should consider either installing a
                 federal monitor to administer the Social Services Program or
                 reassuming administration of the Program.


Tribes Used      We also found that from 1997 through 1999, the Tribes
                 inappropriately used about $614,000 of federal program funds to pay
Direct Federal   overhead, or indirect, costs.5 We did not determine how much of the
Program Funds    $614,000 applied to each federal agency because such a determination
                 would have required an analysis of the revenues and expenditures for
for Indirect     all funding sources for the entire 3-year period. We believe, however,
Costs            that the $614,000 is money “borrowed” from federal funds which was
                 not covered by cash in the bank or investments and which is therefore
                 “unaccounted for” deferred revenue. BIA should coordinate with the
                 Tribes to determine the amount of direct costs that are reimbursable to
                 each federal program. In our opinion, the unaccounted revenue
                 occurred because the Tribes supplemented direct federal program
                 funding without funding their proportionate share of indirect costs.




                 5
                  Under federal contracts, Tribes incur (1) direct costs–those that are specifically identified
                 with a particular program purpose, such as Higher Education–and (2) indirect costs–those
                 that benefit all programs, such as administrative salaries, providing for payroll or
                 procurement services, or operating and maintaining facilities.

                                                                7
Recommendations To assist the BIA and the Tribes in addressing identified problems
                         and issues, we recommend that the Assistant Secretary for Indian
                         Affairs direct appropriate BIA officials to work with the Tribes to:

                            1. Ensure that Tribal management and elected officials enforce
                               compliance with the Tribes’ Accounting and Finance Manual
                               in accounting for and administering federal funds to forestall
                               establishing a federal monitor and/or reassuming
                               administration of the programs.

                            2. Ensure that the eligibility and need of participants in the
                               Tribes’ Social Services Program are properly determined and
                               documented in case files so that only eligible applicants
                               receive federal assistance. Such assurance could include
                               BIA’s installing a federal monitor, reassuming administration
                               of the Program, or taking other action as appropriate.

                            3. Determine the amount of direct funding used for indirect
                               purposes that is reimbursable to each federal program.

                            4. Notify each affected federal agency of the reimbursable
                               amount determined.



Agency and               In his October 31, 2001 response (Appendix 1), the Assistant
Tribal                   Secretary for Indian Affairs generally concurred with
                         Recommendations 1 and 2 and did not concur with
Response and             Recommendations 3 and 4. We modified Recommendations 3 and 4
                         to address the Assistant Secretary’s concerns and believe that BIA’s
OIG Reply                proposed actions meet the general intent of these recommendations.
                         The response stated that BIA would (1) ask the Tribes to require their
                         CPA firm to prepare an analysis of the direct program funding used
                         for indirect cost purposes as part of the Tribes’ next single audit and
                         (2) leave the decision as to whether to recover the costs to each of the
                         federal agencies involved. We agree and are providing copies of this
                         report to the regional offices of the Inspectors General of the agencies
                         providing significant federal funding to the Tribes.

                         We consider Recommendations 2, 3, and 4 resolved and are referring
                         them to the Assistant Secretary for Policy, Management and Budget
                         for tracking of implementation. We modified Recommendations 1
                         and 2 to include a provision for establishing a federal monitor and are
                         requesting additional information for Recommendation 1. Although
                         BIA concurred with that recommendation, it stated that it could not
                         provide a target date for completing the corrective action since

                                                            8
ultimate resolution of the recommendation was up to the Tribes. BIA
did not address the second part of Recommendation 1, which was to
reassume administration of the programs if the Tribes did not enforce
compliance with their Accounting and Finance Manual in accounting
for and administering federal funds. We are asking BIA, after
meeting with the Tribes, to provide an estimated date for either
(1) Tribal compliance with the Accounting and Finance Manual or
(2) BIA’s establishment of a federal monitor or reassumption of
program administration.

In their October 31, 2001 response (Appendix 2), the Tribes generally
concurred with our findings and recommendations, although the
Tribes were critical of BIA’s monitoring and oversight prior to
placing the Tribes on “high-risk” status in September 1996.
Specifically, the Tribes stated that “an atmosphere and spirit of
working together to resolve the causes that prompted the “high risk”
designation or which resulted from the designation does not exist
between the Bureau and the Tribes” and requested that we make a
recommendation for BIA and the Tribes to work together.

We appreciate the Tribes’ response and understand their frustration
with being on “high risk” for the past 5 years. We believe, however,
the situation is equally frustrating for BIA because of the extensive
monitoring and oversight it has continued to provide to ensure that
federal funds are properly managed and accounted for. In addition,
the Tribes still have not adequately addressed several of the
conditions that gave rise to BIA’s designating the Tribes as a “high-
risk” contractor. These conditions were reported in the Tribes’ single
audit reports for 1996, 1997, and 1998; BIA’s monitoring reports; and
our audit report. Further, based on discussions with BIA personnel
and BIA’s response to the draft report, BIA has been and continues to
be willing to work with Tribal officials and personnel to develop,
implement, and enforce the corrective actions necessary to address
many of the conditions that are the basis for the Tribes’ “high risk”
designation. We are particularly interested in BIA’s statement that it
would offer to assist the Tribes in creating and adopting a
“Compliance Code” applicable to all staff, including actions to be
taken for incidences of noncompliance.

We agree that progress toward resolving the system and program
changes necessary to address the Tribes’ “high risk” status is best
accomplished in an atmosphere of cooperation. The Tribes, however,
are ultimately responsible for ensuring that federal funds are properly
managed and accounted for and must take the steps necessary to again
assume full responsibility for administering programs and services to
their members.



                                  9
                                                    Appendix 3
                  Status of Recommendations


Recommendation          Status              Action Required
       1         Management Concurs      Provide an estimated
                 Additional              date for (a) Tribal
                 Information Is Needed   compliance with the
                                         Accounting and Finance
                                         Manual or (b) BIA’s
                                         establishment of a
                                         federal monitor or re-
                                         assumption of program
                                         administration.
   2, 3, and 4   Resolved; Not           No further response to
                 Implemented             the OIG is required.
                                         We will refer the
                                         recommendations to the
                                         Assistant Secretary for
                                         Policy, Management
                                         and Budget for tracking
                                         of implementation.




                                 15
                            MISSION STATEMENT
                              The Office of Inspector General conducts and supervises audits and
                              investigations of Departmental operations and programs to:

      Promoting                      S    Promote the economy, efficiency, and effectiveness of
      Economy,                            Departmental programs, and
      Efficiency, and                S    Prevent and detect fraud, waste, and abuse in
      Effectiveness                       Departmental programs and operations.

                              To accomplish our mission, we:

                                     S   Advise agency officials and Congress of changes
                                         needed in Departmental operations,
      T h r o u g h                  S   Provide guidance on existing and proposed legislation
      Detection,                         and regulations relating to agency operations,
      Reporting, and                 S   Refer information to the U.S. Attorneys for possible
      Monitoring                         prosecution.
                                     S   Report to Congress on actions taken to correct reported
                                         problems.




HOW TO REPORT FRAUD, WASTE, AND ABUSE
Fraud, waste, and abuse in Government is the concern of everyone–Office of Inspector General
staff, Departmental employees, and the general public. We actively solicit allegations of any
inefficient and wasteful practices, fraud, and abuse related to Departmental operations and
programs. You can report allegations to us by:
              MAIL                              PHONE                            INTERNET

   U.S. Department of the Interior    Our 24-Hour toll-free number:   www.oig.doi.gov/hotline_form.html
    Office of Inspector General              1-800-424-5081
        Mail Stop 5341-MIB            Washington Metropolitan Area:
        1849 C Street, N.W.                   202-208-5300
      Washington, DC 20240                Insular Areas Region:
                                              703-235-9221
                                                   Fax:
                                              202-208-6023
                                            Hearing Impaired:
                                              202-208-2420
